<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                
                         [H.A.S.C. No. 115-99]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

      FISCAL YEAR 2019 BUDGET REQUEST FOR COMBAT AVIATION PROGRAMS

                               __________

                              HEARING HELD
                             APRIL 12, 2018


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-573                     WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
                                     
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        NIKI TSONGAS, Massachusetts
PAUL COOK, California, Vice Chair    JAMES R. LANGEVIN, Rhode Island
SAM GRAVES, Missouri                 JIM COOPER, Tennessee
MARTHA McSALLY, Arizona              MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
TRENT KELLY, Mississippi             JACKY ROSEN, Nevada
MATT GAETZ, Florida                  SALUD O. CARBAJAL, California
DON BACON, Nebraska                  ANTHONY G. BROWN, Maryland
JIM BANKS, Indiana                   TOM O'HALLERAN, Arizona
WALTER B. JONES, North Carolina      THOMAS R. SUOZZI, New York
ROB BISHOP, Utah                     JIMMY PANETTA, California
ROBERT J. WITTMAN, Virginia
MO BROOKS, Alabama
                John Sullivan, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                            
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tsongas, Hon. Niki, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     3
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Bunch, Lt Gen Arnold W., Jr., USAF, Military Deputy, Office of 
  the Assistant Secretary of the Air Force for Acquisition; and 
  Lt Gen Jerry D. Harris, USAF, Deputy Chief of Staff for 
  Strategic Plans and Requirements, Headquarters U.S. Air Force..     6
Grosklags, VADM Paul A., USN, Commander, Naval Air Systems 
  Command, Headquarters U.S. Navy; LtGen Steven Rudder, USMC, 
  Deputy Commandant for Aviation, Headquarters U.S. Marine Corps; 
  and RADM Scott Conn, USN, Director, Air Warfare, Headquarters 
  U.S. Navy......................................................     4

                                
                                APPENDIX

Prepared Statements:

    Bunch, Lt Gen Arnold W., Jr., joint with Lt Gen Jerry D. 
      Harris.....................................................    67
    Grosklags, VADM Paul A., joint with LtGen Steven Rudder and 
      RADM Scott Conn............................................    36
    Turner, Hon. Michael R.......................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Bacon....................................................    95
    Mr. Bishop...................................................    96
    Mr. Brooks...................................................    96
    Mr. Brown....................................................    95
    Mr. Turner...................................................    93
      
.      
      FISCAL YEAR 2019 BUDGET REQUEST FOR COMBAT AVIATION PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                          Washington, DC, Thursday, April 12, 2018.
    The subcommittee met, pursuant to call, at 2:02 p.m., in 
Room 2212, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.


  STATEMENT OF MICHAEL R. TURNER, A REPRESENTATIVE FROM OHIO, 
     CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Mr. Turner. The hearing will come to order. The 
subcommittee meets today to review Air Force, Navy, and Marine 
Corps combat aviation programs in the fiscal year [FY] 2019 
budget request.
    I would like to welcome our distinguished panel of 
witnesses. We have Vice Admiral Paul Grosklags, Commander of 
the Naval Air Systems Command; Lieutenant General Steven 
Rudder, Deputy Commandant of the Marine Corps for Aviation; 
Rear Admiral Scott Conn, Director of the Navy's Air Warfare 
Division; Lieutenant General Arnold Bunch, Military Deputy in 
the Office of the Assistant Secretary of the Air Force for 
Acquisition; Lieutenant General Jerry Harris, Air Force Deputy 
Chief of Staff for Plans, Programs, and Requirements.
    I want to thank all of you for your service and we look 
forward to your testimony here today.
    This hearing continues the subcommittee's ongoing oversight 
of combat aviation modernization. It represents the third 
hearing of the subcommittee that we have held this year alone 
on this topic.
    Last year when the subcommittee held this hearing on the 
fiscal year 2018 budget request we heard how years of 
continuous combat operations and deferred modernization had 
created a crisis in military readiness.
    The Balanced Budget Agreement signed by the President in 
February and the fiscal year 2018 Consolidated Appropriations 
Act will help us to provide much-needed stability and relief. 
Combined with the fiscal year 2019 budget request, the military 
services should be able to begin digging out of this hole.
    Our witnesses today have been asked to identify their top 
five modernization requirements for the combat aviation 
portfolio and briefly summarize how this budget request helps 
to restore full-spectrum readiness.
    We also expect the witnesses to articulate how these 
requirements are aligned with the goals and objectives of the 
new National Defense Strategy. We expect to examine a broad 
range of issues today that I will highlight later in this 
statement, but I first want to address some issues brought to 
my attention by F-35 pilots and maintainers at Hill Air Force 
Base where I travelled last week.
    These pilots were very concerned about their visual acuity 
during night refueling operations using the F-35 pilot helmet 
and describe the issue as a safety issue. The pilots also said 
the Navy pilots conducting night aircraft carrier landings in 
the F-35C and Marine Corps F-35B conducting night landings on 
amphibious ships had a similar safety concern.
    The maintenance personnel are still very disappointed in 
the logistics autonomic--there you go, Autonomic Logistics 
Information System or ALIS. They continue to have to use manual 
worksheets and workarounds that take time and effort resulting 
in lower aircraft availability and mission-capable rates, and 
they also reported that they are not standardized. I would like 
for each of the witnesses to address how these concerns relate 
to their areas and strongly urge each of you to work with the 
F-35 program office to get these items fixed.
    I will just briefly touch on a few other key issues that we 
expect to cover this afternoon. Regarding F-35A production, the 
subcommittee would like to better understand the rationale for 
this year's F-35A request, which amounts to 48 aircraft, and 
why there is no real significant increase given last year's 
underfunded requirement for 14 additional aircraft.
    General Harris, you testified before the subcommittee last 
year and stated that, quote, ``the Air Force needs to increase 
F-35A procurement to a minimum of 60 aircraft per year as 
quickly as possible,'' end quote. I will also note that 3 years 
ago, the Air Force planned to procure 60 F-35As in fiscal year 
2019.
    Regarding physiological episodes [PEs], we continue to be 
concerned by the increased rate of physiological episodes 
occurring in Navy and Air Force aircraft.
    We recognize that work is being done to mitigate these 
events, but remain concerned about the overall progress that is 
made in determining a root cause. This is a good opportunity 
for the witnesses to provide some detail as to how this budget 
request supports mitigation efforts.
    Regarding aviation readiness and strike fighter 
inventories, it is my understanding the Navy continues to 
absorb risk in its management of the strike fighter inventory. 
I understand the Navy has submitted a request for F/A-18 
multiyear procurement authorization which if authorized should 
make the procurement of Super Hornets more efficient and less 
costly.
    Last year, the Navy and Marine Corps continued to fall 
short of the number of ready basic aircraft. We will look to 
better understand what efforts are currently underway to 
mitigate potential strike fighter shortfalls and improve 
readiness.
    Regarding training aircraft, the subcommittee continues to 
have concerns regarding the overall age of the training 
aircraft fleet. I believe that if we are fielding fifth-
generation aircraft then we should be fielding a fifth-
generation trainer. I look forward to hearing an update on the 
Air Force's next-generation trainer, the TX program.
    Regarding munitions, while everyone in the committee is 
pleased to see many critical munition programs are being kept 
at maximum production in the budget request, I am concerned 
that years of underinvestment has created shortfalls in 
munition inventories that are being exacerbated by current 
operations. We need to better understand the challenges you 
currently face with managing munition programs, as well as this 
critical industrial base.
    And finally, let me--let there be no doubt that we are 
experiencing a crisis in military readiness and that we must 
address now. More U.S. military service members have died 
recently in aircraft mishaps over the past year than have died 
while serving in Afghanistan.
    Over the last 3\1/2\ weeks we have witnessed a series of 
aviation accidents where 16 service members have tragically 
lost their lives. One of the service members was a constituent 
of mine. Gunnery Sergeant Derik Holley was a 33-year-old 
enlisted Marine and he was killed while conducting training 
missions in a CH-53E helicopter, a helicopter that has been in 
service since the 1970s.
    Many of these tragic events are a result of lack of 
training hours due to constrained resources and/or the current 
state of aging equipment, all of which resulted from years of 
underfunding our military, and clearly shows the magnitude of 
the problem that we are dealing with.
    This is why we have fought so hard to raise the 
Department's topline budget request. We have to do whatever it 
takes to ensure that our aircraft are safe and that pilots get 
the training they need.
    Before we begin with witness statements, I would like to 
turn to my good friend and colleague from Massachusetts, Ms. 
Niki Tsongas, for comments that she would like to make.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 33.]

STATEMENT OF NIKI TSONGAS, A REPRESENTATIVE FROM MASSACHUSETTS, 
  RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Ms. Tsongas. Thank you, Mr. Chairman, and welcome to our 
witnesses. Good to have you with us today. I would like to 
thank you for being here today to answer questions about the 
fiscal year 2019 budget request for Air Force, Navy, and Marine 
Corps aviation-related programs.
    Taken together these programs constitute the largest amount 
of funding in the DOD's [Department of Defense's] procurement 
and research budgets, so it is important to review them 
carefully. Overall, it appears that most aviation programs for 
the three services are well-funded.
    The performance of these programs are, however, more of a 
mixed story, with some programs performing well and some 
running into difficulties. Before we get into our witnesses' 
statements and member questions I did want to touch on a few 
issues of note.
    First, the issue of high rates of physiological episodes 
which Chairman Turner has referenced continues to be a 
challenge, particularly for the Navy's F-18 fleet. Recently, 
similar issues have come up regarding other aircraft, including 
some operated by the Air Force.
    The Navy recently provided an update to Congress on its 
efforts in this area. And I am encouraged by the amount of 
upgrade efforts underway and the significant progress on T-45 
event rates.
    However, I remain concerned that event rates for the F-18 
remain well above acceptable levels. Hopefully, the many 
efforts to upgrade airframes that are underway will improve the 
situation soon.
    In the meantime, the committee must decide how to proceed 
with a request from the Navy to enter into a 3- to 5-year 
multiyear contract for F-18 aircraft starting in fiscal year 
2019. Before committing billions of additional dollars to the 
F-18, I want to make sure we fully understand the path to 
reducing physiological event rates to acceptable levels.
    Second, I remain concerned with some aspects of the F-35 
program. While production costs are down and the initial 
development effort is coming to an end, much work remains to be 
done to get the plane the military needs.
    Importantly, the detailed schedule and potential cost of 
the follow-on development or Block 4 also known as C2D2 
[Continuous Capability Development and Delivery] effort is 
still not known, even though the budget request contains almost 
$1 billion for this effort.
    Finally, I am troubled by the Air Force and Navy's extended 
problems getting the AIM-120 missile program's production rate 
up to where we need it to be to meet the demands of potential 
conflicts.
    After years of problems with productions of AIM-120 missile 
motors, the program's production rate is now hobbled by a 
critical parts obsolescence problem. While I know the DOD is 
working closely with the contractor to address this issue, the 
delays to this vital program are of concern.
    I will have some questions in all these areas and look 
forward to today's hearing. Thank you and I yield back.
    Mr. Turner. Admiral Grosklags, please proceed followed by 
General Rudder, Admiral Conn, General Bunch, and General 
Harris.

STATEMENT OF VADM PAUL A. GROSKLAGS, USN, COMMANDER, NAVAL AIR 
 SYSTEMS COMMAND, HEADQUARTERS U.S. NAVY; LTGEN STEVEN RUDDER, 
USMC, DEPUTY COMMANDANT FOR AVIATION, HEADQUARTERS U.S. MARINE 
    CORPS; AND RADM SCOTT CONN, USN, DIRECTOR, AIR WARFARE, 
                     HEADQUARTERS U.S. NAVY

    Admiral Grosklags. Thank you, Mr. Chairman.
    I am going to make an opening statement for the entire 
Department. So, Mr. Chairman, Ranking Member Tsongas, 
distinguished members of the subcommittee, on behalf of myself, 
Lieutenant General Steve Rudder, Deputy Commandant for 
Aviation, and Rear Admiral Scott Conn, the Navy's Director of 
Air Warfare, we thank you for the opportunity to appear before 
you today to address the Department of the Navy's fiscal year 
2019 aviation programs budget request.
    We believe our PB19 [President's budget for fiscal year 
2019] request is well-aligned with and is supportive of the 
National Defense Strategy, rebuilding our readiness while 
building a more lethal force. Our ability to achieve this 
alignment is greatly facilitated by the additional budget 
flexibility provided by the recent budget agreement and the 
recently enacted fiscal year 2018 budget.
    The lethality which naval aviation brings to bear in 
support of our Nation's interests will be greatly enhanced by 
the increased procurement numbers for aircraft and weapons, 
increased investment in the development of new and advanced 
capabilities, and increased funding of our critical readiness 
and sustainment accounts. The need to transform our business 
and acquisition practices is being directly addressed with 
investments in agile accelerated capabilities-based 
acquisition, leveraging authorities provided by the Congress in 
the fiscal year 2016 through 2018 NDAAs [National Defense 
Authorization Acts], and investment in Naval Aviation 
Sustainment Vision 2020 which will leverage commercial tool 
sets and best practices in making fundamental changes to the 
processes by which we plan and execute aviation sustainment 
activities.
    In support of the National Defense Strategy and to ensure 
readiness for combat while modernizing and building a more 
lethal force, specific naval aviation priorities included in 
the PB19 request include for the Marine Corps: F-35 procurement 
and sustainment; CH-53K development and continuation of low-
rate initial production; Marine air-ground task force unmanned 
expeditionary capability, also known as MUX; completion of the 
H1 upgrades procurement; and maintaining the lethality of our 
legacy F-18 aircraft.
    For the Navy, priorities include F-18 Super Hornet service 
life modernization and procurement of F-18 Block III, F-35s, E-
2s, P-8s, CMV-22s and Triton, and development of MQ-25 and our 
Next-Generation Jammer.
    For both services a critical priority is full funding to 
the PB19 request for all of our aviation readiness accounts 
including spares.
    Now as both the chairman and ranking member noted, I would 
also be remiss if I did not mention our continuing challenge 
with physiological episodes. This remains naval aviation's stop 
safety concern and continues to have our complete attention.
    While we have made clear progress in some areas, solutions 
to the broader problem do remain frustratingly slow. In 
parallel with pursuit of root causes, we are continuing 
implementation of hardware, software, and procedural 
mitigations. We are conducting additional flight testing and 
system characterization. And following NASA's [National 
Aeronautics and Space Administration's] independent review of 
last year, we have a greatly increased focus on aircrew 
physiology and the operational environment.
    Full funding of the PB19 PE specific request is critical to 
continuation of these efforts. In closing, we thank the 
subcommittee for your efforts in reaching the current budget 
agreement and for your continuing support of our sailors and 
Marines.
    We look forward to answering your questions.
    [The joint prepared statement of Admiral Grosklags, General 
Rudder, and Admiral Conn can be found in the Appendix on page 
36.]
    Mr. Turner. General Bunch.

   STATEMENT OF LT GEN ARNOLD W. BUNCH, JR., USAF, MILITARY 
DEPUTY, OFFICE OF THE ASSISTANT SECRETARY OF THE AIR FORCE FOR 
ACQUISITION; AND LT GEN JERRY D. HARRIS, USAF, DEPUTY CHIEF OF 
 STAFF FOR STRATEGIC PLANS AND REQUIREMENTS, HEADQUARTERS U.S. 
                           AIR FORCE

    General Bunch. Good afternoon. Thank you, Chairman Turner, 
Ranking Member Tsongas, and the distinguished members of the 
subcommittee for the opportunity to appear before you today to 
talk about the Air Force's priorities for fiscal year 2019.
    We appreciate your service and the support this 
subcommittee provides United States Air Force, our airmen, and 
their families. Today, I am accompanied by Lieutenant General 
J.D. Harris, Deputy Chief of Staff, Strategic Plans and 
Requirements.
    We have prepared a joint statement and I will provide brief 
opening remarks, but I would ask that the full statement be 
entered into the official record. For the past 70 years, the 
Air Force has been breaking barriers as a member of the finest 
joint warfighting team on the planet through the evolution of 
the jet aircraft to the advent of the ICBM [intercontinental 
ballistic missile], satellite-guided bombs, remotely piloted 
aircraft, and development of satellites.
    In the same timeframe, your Air Force has also secured 
peace by providing decisive warfighting advantage in, through, 
and from air, space, and cyberspace. Today's demand for Air 
Force capabilities continues to grow as the United States now 
faces a more competitive and dangerous international security 
environment than we have seen in many generations.
    The fabric of our Air Force weaves multi-domain effects and 
provides our joint warfighters the blanket of protection and 
ability to project power--power project America's full range of 
combat capabilities. We are always there.
    Today, 670,000 Active Duty, Guard, Reserve, and civilian 
airmen meet these challenges by defeating our adversaries, 
deterring threats, and assuring our allies 24 hours a day, 7 
days a week, 365 days a year.
    With global trends and intensifying pressure from major 
challengers, our relative advantage in air and space is eroding 
in a number of critical areas. We are supporting combatant 
commander requirements in response to growing challenges from 
Russia, China, North Korea, and Iran, in addition to an ever-
present counterterrorism mission in the Middle East and around 
the world.
    In accordance with the new National Defense Strategy, this 
year's budget request prioritizes long-term competition with 
China and Russia. The Air Force must build a more lethal and 
ready force, strengthen alliances and partnerships, and deliver 
greater, more affordable performance.
    Future wars will be won by those who observe, orient, 
decide, and act faster than adversaries in an integrated way 
across all domains. With your support of our fiscal year 2019 
budget request, the Air Force will drive innovation, reinforce 
budget discipline, and deliver capabilities with greater 
affordability at the speed of relevance.
    The demand for air, space, and cyber capabilities is 
growing and our Chief is committed to ensuring that America's 
airmen are resourced and trained to fight alongside our sister 
services to meet all national security obligations.
    The Air Force seeks to balance risk across capacity, 
capability, and readiness to maintain our Nation's advantage. I 
would like to thank the members of this committee for the 
passage of the fiscal year 2018 budget and the relief of the 
Budget Control Act restrictions in fiscal year 2018 and 2019. 
This allows us to relook at some of the tough tradeoffs made 
between force structure, readiness, and modernization.
    Today's modernization is tomorrow's readiness. Readiness is 
not static. While our forces have been heavily engaged in 
deterring or addressing counterterrorism, other adversaries 
have taken the opportunity to invest in and advance their own 
capabilities. To address ever-narrowing capability advantages, 
the Air Force needs your support in the form of steady, 
predictable, and timely appropriations that fulfill our annual 
budget request.
    The Air Force budget request for 2019 builds on the 
progress we are making in 2018 to restore the readiness of the 
force, to increase our lethality, and cost-effectively 
modernize our top priorities.
    Sustaining these efforts requires predictable budgets at 
the requested funding levels. It is critical to ensure we can 
meet today's demand for capability and capacity without 
sacrificing modernization for tomorrow's high-end fight against 
the full array of potential adversaries.
    Timely funding of our request allows us to--ability to 
modernize faster, be ready sooner, and be capable of achieving 
our National Defense Strategy task in a timely manner.
    You asked us to identify the Air Force's top five combat 
aviation modernization priorities for fiscal year 2019. Today, 
in this area, the priorities are the traditional big three for 
the Air Force: the F-35, both procurement--to include 
procurement, sustainment, and modernization; the KC-46 for the 
role that it plays in being able to power project; and the B-
21.
    The other two areas are the next-generation air dominance 
efforts that we are embarking on and our fourth-generation 
modifications to keep our legacy fleet flyable and viable and 
more capable. These efforts are key to our ability to answer 
the Nation's call when needed.
    Like Admiral Glosklags, we are very focused on unexplained 
physiological events, particularly in the recent T-6 incidents 
number of increase that we have incurred. We have multiple 
attack vectors in that area and I will be happy to discuss 
those in more detail.
    As critical members of the joint team represented here 
today, the Air Force operates in a vast array of domains and 
prevails in every level of conflict. However, we must remain 
focused on integrating air, space, and cyber capabilities 
across all of those domains so that we can project power. 
General Harris and I look forward to answering questions from 
the committee this afternoon.
    Thank you for your continued support of the greatest Air 
Force on the planet.
    [The joint prepared statement of General Bunch and General 
Harris can be found in the Appendix on page 67.]
    Mr. Turner. General Harris, do you have an opening 
statement? Thank you.
    Well, gentlemen, I have only one question. And I think it 
is the most important one of all of the issues that we have 
been facing. And you don't have to be on the Armed Services 
Committee and you don't have to have the uniform on to 
understand that we have a crisis in aviation mishaps. People 
are dying. Our chairman has made the statement that it is more 
risky for a service member to be in training and exercises than 
in combat right now.
    This needs to be addressed. As I said in my opening 
statement, we need to make certain our aircraft are safe and 
that pilots get the training that they need. General Mattis 
says that we must prioritize rebuilding readiness while 
modernizing our force.
    How does the budget that we are looking at for the upcoming 
year address this issue and what do we need to be doing and 
what will you be doing to address this issue so that we can end 
the risky nature of these mishaps that are resulting in deaths 
of our military service members, our men and women?
    I will begin with you, General Grosklags--Admiral.
    Admiral Grosklags. Yes, Mr. Chairman. Certainly, we are 
very much aware as you are of the recent mishap trends. And we 
are working very hard. Now, each one of those mishaps has to be 
dealt with on an individually unique basis to determine the 
root cause, and that is certainly our focus on each and every 
one of those individually to determine the root cause.
    Along with that, we are certainly using the funding that we 
have in the fiscal year 2018 budget along with the request in 
PB19 to focus on those areas that may influence our ability to 
reduce the mishap rate in the future.
    We know we need to do that, but again each one of those 
mishaps will have a unique cause and so there is not a 
universal panacea if you will that we can invest money in a 
certain spot.
    Things that will help us get after the potential causes are 
making sure that our maintainers have the tools and equipment 
they need to maintain the aircraft to the best of their 
ability; making sure that the material condition of those 
aircraft in terms of spare parts and readiness on the flight 
line is at an absolute maximum condition; and making sure that 
our aircrew have the requisite number of hours to make sure 
they are trained for the missions that they are being asked to 
fly.
    All of those things we will make improvements on based on 
the additional funding we have received, but again, I can't tie 
any one of those specific things directly to certainly any of 
the recent mishaps which we are still investigating or even 
make a direct tie to the mishaps that we have experienced over 
the last number of years.
    We try to make those linkages every time we have a mishap, 
identify the root cause. In many cases we do, in all cases that 
is not possible. But we continue those efforts. So, I guess in 
wrapping it up, the investments that we are able to make in 
2018 and 2019 will certainly help us rebuild some of the 
foundational things that we have lost over the last 6 or 7 
years. And it is certainly our intent to try and reduce the 
mishap rate based on those foundational elements.
    Mr. Turner. Admiral, I appreciate your dedication to get to 
root cause, but I don't buy that, that it is merely just 
individual incidences. If you have vehicular accidents that 
occur at a particular intersection repeatedly, they each have 
their own story, but at times there is something wrong with the 
intersection.
    And at this point, we have an aggregate of these mishaps. I 
think they go to a systemic issue, not just the isolated 
instances in which they happened and I certainly want as we 
look to this budget and our oversight that that attention is 
paid, because this is unprecedented in what we are seeing.
    General Rudder, your thoughts?
    General Rudder. We also are looking at each one of the 
mishaps and certainly the last CH-53 Echo mishap hit home as 
well. I was in Dover last Friday night with the Secretary of 
the Navy and that was a tough night for all of us.
    When we look at all of these mishaps, we too are looking at 
the hours. And one of the things we are focusing on for 2019 is 
just like we did in 2018. We are maximizing our readiness 
accounts. We are going to--we are giving maximum amounts to our 
depots, okay, maximum amounts to buy spares. We are getting 
maximum amounts to our program managers so they can fix the 
airplanes.
    The CH-53 Echo in particular, we are still executing our 
max [maximum] funds to reset that airplane on both the east and 
west coast and in a few other areas in the Pacific and up in 
Oregon. For the modernization it will help us as well. As we 
are able to--you have graciously given us the funds to be able 
to not only reset the airplanes themselves, but also buy new 
and get out of some of these older aircraft.
    We have seen some positive movement on the hours. In 2016, 
we are at 13.5 average for the Marine Corps. In 2017, 15.4, and 
in both February and March we are at 18.8 and 19.3 is the 
average throughout the Marine Corps. So, we are seeing some 
positive trends, but certainly any type of readiness recovery 
is fragile.
    Certainly, the devastating ones, Class A, individually we 
look at every single mishap and pull apart and we make the 
corrective actions. One thing that we have seen and I think the 
article brought out is certainly our Class Cs. We are finding 
that experience level down in our maintenance departments and 
certainly our ops [operations] tempo is creating a lot of 
people towing airplanes into things and doing maintenance 
practices that may be not in accordance with the experience 
level we are used to.
    And we are addressing that, trying to provide more 
stability with our enlisted manpower down there by giving them 
reenlistment bonuses if they have the higher qualifications and 
stabilizing them in the squadron.
    For instance, if you are a collateral duty inspector, a 
collateral duty QAR, or quality assurance representative, now, 
you have a separate MOS [military occupational specialty]. And 
if you reenlist with that designator, you get an extra $20,000 
kicker and you stabilize, you will be in that squadron for 
another 2 years.
    So, I think as an example, we have had 676 Marines, 
corporals and sergeants and staff sergeants, take that and now 
we have stabilized that manpower in the garage. But back to 
your original point, Chairman, each one of these mishaps is 
hurting and we are certainly addressing each one of those 
mishaps in case by case basis.
    Mr. Turner. General, I appreciate your detailed answer and 
the passion which you have about this.
    Admiral Conn.
    Admiral Conn. Yes, sir. Well we lost two officers off Key 
West not too long ago. And we can always replace the airplanes, 
but we can't replace those sons to their families, sons or 
brothers who, indeed it was a tragic event.
    Overall, for our Class A and Class B for the last 5 years, 
it has been relatively stable, although loss of one life is one 
too many. And every time we have a mishap, we look hard of what 
the root causes were. We put the corrective actions in place. 
We educate our people so we do not repeat those mistakes 
whether it would be a procedural error, a maintenance error, or 
whatnot.
    We too have seen in terms of the rise in mishaps, majority 
being into our Class C. And in those Class C in terms of the 
analysis by the Naval Safety Center, we are seeing far too many 
maintenance supervisor and maintenance skill-based errors. We 
need to get back to the basics in terms of ensuring those 
sailors know how to fix the airplane, but it is not just fixing 
airplanes in hangars. It is fixing airplanes on flight lines 
while you are trying to meet a schedule. And then when you put 
that flight line on an aircraft carrier, with other aircraft 
turning, aircraft taxiing, jet exhaust blowing, there is a 
level of experience there and awareness that those sailors 
need.
    And whether or not the reduction in flight hours is not 
getting those sailors the reps [repetitions] and sets that they 
need as pilots and aircrew do, I can't answer that directly, 
but there is appear to be a correlation that we need to get 
after and provide those sailors the opportunity to do the job 
we expect them to do in the environment in which they need to 
perform with the right tools and experience to succeed.
    Mr. Turner. Admiral, thank you for your answer.
    General Bunch or Harris.
    General Bunch. I will go first. I will hit a couple of 
modernization things and I will hand it over to General Harris 
to go into some of the other details. Safety is our number one 
priority. The safety of our aircrew is critical and we need to 
take every step we can to keep them as safe as possible.
    This is a risky business. We don't need them having undue 
risk though, we need to make sure we are doing those things. We 
are putting a lot of work into the program offices to make sure 
we are focused on giving the aircraft, making them available, 
attacking sustainment issues to keep the fleet viable and 
provide the aviators the opportunity to fly and get the 
training that they need and be sure that they are proficient 
and make sure that we are able to turn aircraft.
    Each case is, [inaudible] in a platform, an incident is its 
own incident. It has to be investigated as has been said 
previously. As we identify those things though, we work with 
the program offices to aggressively and rapidly address those 
actions that have been identified that we need to take steps 
on.
    A couple of areas where I think it shows that we are trying 
to move more forward in that. We have recently worked with the 
JPO [joint program office] and the Navy has worked with us. We 
are pulling auto [automatic] ground collision avoidance system 
to the left in the F-35 because collision with the ground is a 
key area. That is a program that we have got funded and we are 
getting started that we are moving forward to take that step. 
In the F-16, the post Block 40 F-16s, we have had seven times 
that has activated to save aircrew, eight lives we believe have 
been saved thus far. And we are trying to make sure we get that 
into the F-35, our newest fighter.
    The other one that I would bring up in that area is we are 
working on the pre-Block 40s. Those are the older versions of 
the F-16s that many of our Reserve Components fly, as well as 
some Active Duty units.
    We are entering into a program to get that mod 
[modification] put into that system, to get it out into the 
field in the future and try to make sure we are taking that 
which is one of our biggest reasons as a ground collision that 
we are trying to take that out of the equation to make our 
fighter aircraft safer.
    General Harris. Chairman Turner, sir, thank you for your 
question, for highlighting our shortcomings in this area. 
Safety is our number one concern and readiness has been the 
focus of where our Chief, General Goldfein, and Secretary 
Wilson are taking us.
    To that end, we have aligned our fiscal year 2019 budget 
request with both the National Defense Strategy and our 
readiness efforts to make sure that we can accelerate what will 
be a multiyear climb to get back to being ready.
    Those scenarios will drive our airmen into scenarios for 
the high-end conflict that can actually be tougher than the 
conflict we are in today, but that doesn't explain all the 
training accidents we have which are coming across, some from 
inexperience, but some from some of our highest qualified 
aircrew, and we suffer with each one of those losses.
    Our readiness recovery strategy is focused on disciplined 
investments that cover our critical skills availability, so our 
people, training resource availability, the things they train 
with, the weapons support systems, so across the WSS to make 
sure that they--the aircraft have the parts and that they are 
ready to go, our flying hour program to make sure that each one 
of the airmen are flying the hours they need to stay not just 
to be current, but to be proficient in the missions we are 
assigning them to.
    And then also on the policy side, sir, the ops [operations] 
tempo and the training to make sure that the people get the 
time they need to both prepare to fly, to fly, and then also 
have the downtime that they need. So, we are working on that.
    From our perspective, we appreciate the support that you 
have given us in both an increased budget with 2018 and we are 
hopeful that you are supportive of our growth, because with 
readiness our number one concern right now is our people. We 
don't have enough airmen doing the job that we have got doing 
so the growth is getting at the readiness. And we are also 
stepping out in the budget to recapitalize and modernize the 
fleets across what we are doing.
    Thank you, sir.
    Mr. Turner. Ms. Tsongas.
    Ms. Tsongas. Thank you. I think you can see that the 
chairman and I share a real concern about the safety of aircrew 
and that's why we are so concerned by some of the numbers. And 
I wanted to turn our conversation to the efforts related to the 
physiological events that have been of such concern to this 
committee.
    From our briefings, we know that numerous efforts are 
underway to reduce that rate of physiological events in the F-
18 fleet, specifically the Navy is modifying the software for 
the environmental control system, installing upgrades to deal 
with icing in some fluid lines, redesigning two pressure 
valves, developing a cabin monitoring system, and installing an 
upgraded emergency oxygen system. However, I think there are 
some other efforts underway that I wanted to ask about.
    Admiral Grosklags, what is the status of designing a new 
onboard oxygen generation system? How do you imagine the 
timeline for getting the first one fully tested, and what are 
the challenges?
    Admiral Grosklags. There are two efforts going on right now 
that are related. The first is for the T-45 actually and we are 
calling that as a GGU-25. Excuse me. It is a replacement for 
the one they have now. It is largely intended as a reliability 
replacement with some improved performance.
    But it also provides a response to one of the key NASA 
recommendations, was that we provide an oxygen scheduling, 
oxygen concentration scheduling capability in our Navy 
aircraft, which we do not have in any of our tactical platforms 
today. That will take us partway to answering that NASA 
recommendation.
    The next step, which is a combined T-45 and F-18, is to get 
to a mil standard [military standard] 3050. That is a very 
recent 2015 mil standard to get to a 3050 compliant oxygen 
generation system. That is something that we are going to 
compete between the two companies that are out there that do 
oxygen generators because today there is not a system on the 
shelf that meets that new mil standard. So, we want to see what 
both of them have to bring to the table.
    For the first effort, we believe we will be able to start 
installing that in our aircraft late next year. It will be the 
following year, depending on what we get back from industry, it 
would likely be the following year, so 2020 before we can get 
that new mil standard compliant oxygen generator.
    Ms. Tsongas. Along those same lines, where is the Navy with 
the plan to install the cabin pressure and oxygen monitoring 
system and when will that--similarly, what would the timeline 
be for that?
    Admiral Grosklags. Right now, the timeline for getting that 
into our F-18s is the third quarter, so about a year from now, 
third quarter of 2019. In the interim, what we are actually 
going to do is install in a limited number of aircraft the same 
monitoring system, the CRU-123 that we put in the T-45s. That 
is not a good long-term solution for the F-18s, but it will 
start to again provide us some information like we are getting 
from the T-45s that will hopefully get us to some of the root 
cause of what is going on in the aircraft.
    Ms. Tsongas. And the Air Force F-16s have had an automatic 
ground collision avoidance system for many years. And we know 
it has saved many lives and in the past the Navy has resisted 
efforts to install a similar system on the F-18. Where is the 
Navy on this issue today given the track record that is 
demonstrated in the Air Force?
    Admiral Grosklags. I will let Admiral Conn answer that.
    Admiral Conn. I will answer that. For the automatic 
recovery for terrain avoidance is something that could be put 
in the airplane, right now it is not funded. From a 
physiological episode, that is not what it is designed to do. 
We have not had a controlled flight into terrain in the F-18 E 
or F in its lifespan. But it is something that we will continue 
to reevaluate whether to put that capability in the aircraft. 
Thank you.
    Ms. Tsongas. Thank you. And then in previous briefings and 
hearings on this topic, we have been told that the Marine Corps 
fleet of relatively old F-18 aircraft are not experiencing the 
high rates of events that the Navy's older F-18s have.
    So, General Rudder, is that still the case? And if so, how 
do you explain it? Are there maintenance, operational, or 
reporting differences between the Navy and Marine Corps 
aircraft?
    General Rudder. No. Thank you, Congresswoman. We are 
tracking this right along with the Navy and I believe if 
``Clutch'' Joyner tells us to do something, we do it and we 
jump and do it. We are in step with the reporting procedures.
    This year, we have had only one in the F-18 and two in the 
Harrier. In years prior, most of our events have been 
pressurization issues in the older F-18 and we have reported 
and go through all the protocols that do that.
    I can't answer it exactly. I think if you look at the 
numbers, sometimes they get skewed with the training command 
and operational units and just where units are in the pipeline. 
But I assure you, whether it is a slam stick, excuse me, slap 
stick or sorbent tube, whether it is working through the 
simulators, we are right in step with the Navy and everything 
has to do with PE. But I don't have a great answer for you, but 
this year we are having another very low year with the F-18 so 
far, knock on wood, with just one F-18 event.
    Ms. Tsongas. Well, that is good news as long as it is the 
case that the reporting is essentially the same.
    I have another issue related to the F-35. Yesterday, there 
was a press report stating that DOD has stopped accepting 
deliveries of F-30 aircraft from Lockheed Martin due to a 
dispute over who will cover the cost of production errors in 
2017 involving more than 200 aircraft. In the story, Lockheed 
Martin confirmed that deliveries have been suspended. So, I 
have several questions about this report for General Bunch and 
General Grosklags. Is the report accurate? Is this report 
accurate?
    General Bunch. So, ma'am, I will start and I will let 
Admiral Grosklags pick it up. It is a pause. I would not say it 
is a complete stop. There have been 14 of the Lot 10 aircraft 
that have been delivered. There are a total of five aircraft 
that have not been accepted at this time, three of those are 
Air Force aircraft, one of those is from Norway, and one of 
those is from Australia.
    Those are aircraft that the program executive officer, 
within his authorities, has made that decision in coordination 
with Ms. Lord to make sure they knew what we were doing to 
address this quality issue and we do not see it as a long-term 
problem. And if we have an operational need for the aircraft, 
we have discussed with Admiral Winter and he is willing to 
entertain the idea and willing to work with us that if we need 
the aircraft for an operational need, we will work with him to 
get those aircraft out of the hold that they are on right now.
    Ms. Tsongas. And then what is the production defect in 
question? What is the issue here?
    General Bunch. Ma'am, it goes back to a corrosion 
prevention in one of the holes that was drilled that was not 
corrected, properly treated that was found during inspection at 
Hill Air Force Base. And we are now working through how that 
made it out of the factory and what we were doing to try to get 
that rectified in the fleet.
    Ms. Tsongas. And why is there any question or dispute as to 
who is going to pay to fix it?
    General Bunch. Ma'am, that is why I am letting Admiral 
Winter work that with the company and he is carrying our water 
in that area.
    Ms. Tsongas. Admiral Grosklags, so, yes, the report is 
accurate. We know the defect. Anything you want to add?
    Admiral Grosklags. Let me add. I agree with everything 
General Bunch said. We know what the technical solution is. 
This is purely about who is responsible for the cost. And I 
agree with Admiral Winter's decision at this point in 
suspending delivery of those aircraft. Quite honestly, this is 
a mistake made by the contractor during production and they 
should pay for that out of their bottom line, not our top line.
    Ms. Tsongas. Thank you both.
    And I yield back.
    Mr. Turner. Our questioners next are Cook, Gallego, and 
McSally.
    Mr. Cook.
    Mr. Cook. Thank you very much, Mr. Chairman.
    This morning, we had General Mattis here and I asked him 
some questions about the F-35 and it is kind of in line with 
what we are talking about, and this was about you know our 
allies, so-called allies, that are purchasing F-35s. And, of 
course, the Canadians backed out of their deal and then the 
question is about the Turks. And there is people on this 
committee and certainly the Foreign Affairs Committee that are 
concerned about the sale to the Turks and how this would 
inflate the overall cost of the F-35, which every year that I 
have been in Congress we are always talking about this is a big 
ticket item.
    And I think we have come a long, long ways, and unless we 
get this foreign military sales or anticipate what is going on 
on this, we could have maybe they are not quite similar 
scenarios, but I think you see what I am getting at.
    The general was very diplomatic in how he handled that 
question. I wasn't so diplomatic as I have some issues with the 
Turks, but that could be a very real-world scenario. Any 
comments on that or you want to duck that one? It is kind of a 
political foreign affairs, but it affects the overall price 
based upon what certain allies do. Do you have a contingency 
plan in place?
    Mr. Turner. Perhaps I can help, but perhaps and if you 
could speak to the importance of our foreign partners both in 
contribution of parts and in overall cost.
    General Bunch. So, sir, overall this has been a unique 
program from the very beginning as we formed it with allies who 
invested all the way along. They have been there for the entire 
development and we have done it in a completely different 
manner than we have done previous programs.
    There is no other program that I am familiar with in my 
experience. Admiral Grosklags may have a different history than 
mine where we have had the partners in as voting members from 
the very beginning and contributing so much to the development 
of a platform.
    So, if they pull out or if something changes in those 
scenarios, there would be an impact to us. Each country 
contributes a certain percentage. We would have to go back and 
look at those percentages. They have a certain number of 
aircraft they are supposed to buy in certain years. And we 
would analyze that and then we would make decisions on how we, 
the U.S. Government, will work with the other partners to make 
up any differences in how we would go forward, because this is 
a critical capability that we, the United States Air Force, are 
counting on for our ability to execute our mission for the 
future.
    Mr. Cook. Thank you, General.
    Going back to the F-35s, and General, we have broached this 
subject with the Marine Corps about operating in an 
expeditionary mode. And recently I was at Twentynine Palms and 
that is an expeditionary airfield. And there was, the wind 
kicked up and then the dust storm kicked up. And I remember the 
last time I was there, there was an MV-22 and, I mean, it was 
like Cook goes back in history to when he was infantry in 
Vietnam and the sand and all that crap.
    And I am thinking, how is this $100 million aircraft going 
to exist in that environment, which is very comparable to the 
Middle East, Afghanistan. You pick a country there and the 
climate. I am very, very worried about that because 
maintenance, maintenance, maintenance just might be overcome by 
elements, elements, elements.
    General Rudder. Thank you, Congressman. And we actually did 
take the F-35B up to Twentynine Palms and we put the ALIS 
system in a tent and we operated it out of that. And actually 
we almost lost a tent because of the dust storm up there. The 
Marines held it down like good Marines and we were able to 
continue to operate.
    Because we built the STOVL [short take-off and vertical 
landing] model we are going to continue to operate that in an 
expeditionary manner. In fact, our concept, that you are 
probably well aware of, the expeditionary air base concept, 
that is how we are going to survive in the future.
    And just recently having our first six F-35s on the USS 
Wasp, we just executed some of these expeditionary distributed 
STOVL operations off that ship into a land-based system keeping 
the airplane running, fueling it off an MV-22, hot-loading it 
with a weapon system and then taking right back off again into 
the fight. So, we are going to continue to maneuver that 
concept and look for ways to enhance that ability to operate in 
these austere environments.
    Mr. Cook. Thank you, General. And I am optimistic, I am 
just saying you are a lot younger than I am. And I don't want a 
repeat occurrence of the Harrier at Camp Lejeune, North 
Carolina, which it is going to land there where a phone call 
had to go to the Marine Corps base so you could have the 
sweeper out there on Limon Road so we wouldn't have any dust 
and particles. And then when that happens in Twentynine Palms, 
you are going to hear from me I guess, but thank you very much. 
I am optimistic, but I am always nervous about it.
    Thank you, Mr. Chairman.
    Mr. Turner. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    In this committee and other, the full committee, we have 
talked a lot about something I think that particularly scares 
me, a concern that we have some adversaries that could take 
advantage of this, is the lack of munitions in our stockpiles 
specifically because we are drawing so much of our munitions 
out of--for CENTCOM [U.S. Central Command] that we are probably 
diminishing in other areas.
    So, I guess my question is can I just get an update on 
where we are in terms of our stockpiles in munitions? You could 
go by areas if you want. And also do we have sufficient 
stockpiles for example, in Asia right now, should something, 
should the balloon go up?
    General Bunch. So, sir, Congressman, that is a great a 
question. What I will do is give you a top level of what 
activities we are trying to do to replenish. I am reticent to 
go too far down----
    Mr. Gallego. Understood.
    General Bunch [continuing]. Exactly how we are in specific 
areas for operational reasons.
    Mr. Gallego. We could talk about that offline, yep.
    General Bunch. We could do that in another forum if you 
would like. I will talk about two weapon systems in particular 
for us, Joint Direct Attack Munitions [JDAM] and Small Diameter 
Bomb I, both of which are weapons that are principally ones 
that a lot of people are being used and are getting a lot of 
use today.
    Over the last years, we have now ramped up JDAM production 
in coordination and partnership with Boeing to the rate of 
45,000 a year. That is the highest we have ever had that rate. 
And we are starting to put stockpiles back in and we have got 
some we can give to, sell to our foreign military sales 
partners. And there is some excess capacity there Boeing may be 
able to get out. We just recently got to that level, though, so 
I wouldn't be willing to commit that we will be able to produce 
more than that, but we are now up to 45,000 a year.
    On the Small Diameter Bomb I, that one is a weapon that 
when we did the full-rate production decision for the Air Force 
we were only producing 3,000 of those a year. Over the last 2 
years, we are now up to the point that we are on contract to 
bring in 8,000 a year. So, we have rapidly ramped that up to 
increase. That is another one that has been in partnership. So, 
we are trying to increase those numbers to get those weapons up 
so that we can rebuild those.
    The piece that we have to keep in--that we have to remember 
and that we stress to our program executive officer and he has 
done it without us even having to really stress it, you have to 
take a holistic look at this. For the JDAM, it is not just the 
tail kit, it is the bomb body. It is the fill material. It is 
everything associated with getting that weapon to be a weapon, 
not just a kit. Same with Small Diameter Bomb. And what we have 
done or I have done is gone to the vendors and said, ``If you 
run into an issue with your subs and they are going to be a 
problem, I cannot find out about it late. You have to tell us 
so that we can work as a partnership to get that problem solved 
so that we can keep weapons going forward because we are 
expending so many today.''
    Mr. Gallego. Admiral.
    Admiral Conn. From a PB19 perspective for the Navy and 
under the same restrictions that Lieutenant General Bunch 
mentioned, for us our investments is just going after some 
high-end weapons for the high-end fight, LRASM [Long Range 
Anti-Ship Missile], AARGM [Advanced Anti-Radiation Guided 
Missile], AIM-9X [Sidewinder short-range multi-mission 
missile], SDB II [Small Diameter Bomb II], RDT&E [Research, 
Development, Test, and Evaluation], as well as addressing some 
of our PANMC [Procurement of Ammunition, Navy/Marine Corps] 
accounts, our JDAM, APKWS [Advanced Precision Kill Weapon 
System], and the funding profiles that will get us to that we 
will call our total munitions requirement on our carriers 
throughout the FYDP [Future Years Defense Program].
    One thing that does not fall into WPN [Weapons Procurement, 
Navy] is our sonobuoys and we are expending more sonobuoys than 
we planned for across the globe. So, we need--we would ask your 
support for all the investments we are making in PB19 for our 
sonobuoys to include the unfunded list.
    Mr. Gallego. Have you seen this actually--let us call it 
shortage. Have you seen this shortage actually have an effect 
on live fire practice or exercises?
    Admiral Conn. For our non-combat expenditure allocation, we 
are shooting. That is a firm belief we have in naval aviation 
is the value of live fire end-to-end validation of the weapon 
system itself. And then the aircrew's ability to execute that 
or deliver that weapon in accordance with procedures. We have 
some weapons that are getting ready to demil [demilitarize] and 
we are going to shoot them instead of demilling them.
    Mr. Gallego. That is a good idea.
    Lastly and this could go for anyone, how comfortable do we 
feel being able to move munitions from one theater to the other 
quickly and efficiently should the balloon go up?
    General Harris. Moving munitions is not an easy task 
because of the explosives associated with that, so we prefer to 
pre-position them. And our FY 2019 plan that we started earlier 
in 2018, thanks to your help, is already doing that, so we are 
on a get-well slope right now.
    Mr. Gallego. Anybody else? I yield back.
    Mr. Turner. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    General Harris, I am talking about the A-10 re-winging, go 
figure. So, we have had lots of conversations about this with 
the Air Force leadership. We finally did get the resources to 
start the production line back up again in the funding bill. It 
is unfortunate that it closed back down. It is going to cost 
more in the long run to do it this way.
    But either way, in this year's funding bill that is enough 
for 4 wing sets. The request for next year, we understand, is 
for somewhere between 8 and 12 wing sets. I know you were told 
there would be no math, but there is 109 left in the fleet that 
need to be re-winged. So, at that rate for between this year 
and next year, that is 93 to go. It is our understanding that 
Hill's maximum capacity is 32 a year. Is there some other 
reason why you are not asking for max capacity? Is it because 
we can't have that many in the fleet that are out for that 
period of time, just operational requirements? So, that is my 
first question.
    And then how many aircraft will be grounded this year, next 
year, the year after? Your testimony says that you are asking 
for the wing program to avoid any further groundings beyond 
2025. So, can we get some specifics on how many aircraft will 
be grounded every year between now and then? And I know some of 
that is dependent on operational tempo, but I also want to talk 
about what innovative things can be done to smooth that out, 
because, as you know, certain squadrons are taking a beating 
more than others and there are ways to smooth that out. So, 
there's a lot of questions in there, but it is all about the 
re-winging.
    General Harris. Congressman, thank you for the question and 
for continuing to take care of the A-10 fleet. We do not expect 
to have any groundings for the A-10s based on the way we are 
flying them now. And we are rotating those that are close to 
being grounded into BAI [backup aircraft inventory] status so 
we can preserve them, so we don't expect in the next couple of 
years to have an issue with that.
    Ms. McSally. Okay.
    General Harris. We kept the production of new wing sets 
low. We kept it open with the 8 to 12 wings until we complete 
our studies. Many have been passed to this committee to make 
sure that we understand where it is we are going with the 
profile. So, until we have an answer for that to include the F-
35 OT&E [operational test and evaluation] test and comparison 
we are not going to make a further commitment until we know 
where we are going with both the A-10 and the F-35. So, we will 
have to get back to you on a grounding per year, per airplanes, 
and we will----
    Ms. McSally. Okay. So, you said the next few years, but the 
testimony says to avoid any further groundings beyond 2025. So, 
are you saying between the next few years and 2025 for sure 
there is going to be groundings unless something changes? The 
word ``further'' is jumping out at me.
    General Harris. Okay. We are not confident that we are 
flying all the A-10s that we currently possess through 2025 
with our plan. So, as we are looking at our CAF [Combat Air 
Force] roadmap and where we are going with our modernization 
program, our intent is not to have groundings that impact the 
fleet. So, between now and 2025 we are comfortable and, as we 
said, we will be flying A-10 we expect to the 2030 timeframe 
and we will make sure that we re-wing enough of the aircraft to 
have that capability and capacity.
    Ms. McSally. So, can I again read into that because I know 
this is where we do differ, I mean, you have got in the 
testimony going down to six squadrons where there is currently 
nine squadrons and, as you know, there are less PAA [primary 
assigned aircraft] than the old squadrons had. They are down to 
18 versus 24 PAA.
    From my view, again, for the millionth time, with them 
being south of the DMZ [demilitarized zone] and deployed to 
Afghanistan and just coming back from shwacking ISIS [Islamic 
State of Iraq and Syria], and working with our NATO [North 
Atlantic Treaty Organization] allies, and all that we have on 
our plate, three Active Duty and then six Guard and Reserve 
squadrons for a total of nine, like that is already stretching 
it for the types of capabilities that they bring to the fight. 
So, how is it that we would provide that capability to the 
combatant commanders if we went down to six? I just, I don't 
see it.
    And we obviously mandated 171 minimum combat capability in 
the last couple of NDAAs. I expect to fight to continue to have 
that number in there as long as I am around. So, how does that 
square itself, because I just--at least you are all agreeing 
well into the 2030s, which I appreciate and partnering with you 
on that. But it is the six versus nine that I just think we are 
still out of sync.
    General Harris. Okay. Part of it as we go from nine to six 
if we execute the plan as we are studying right now, we will 
make the remaining A-10 squadrons healthy back to 24 PA 
[primary aircraft]. Some of the Guard units may only be able to 
get to 21 PA. We are trying to fix the ones we have. I am not 
committing to well into the 2030s for the A-10. As I said, we 
will fly the A-10 to 2030.
    Ms. McSally. The Secretary said 2030. Okay. Sorry.
    General Harris. Yes.
    Ms. McSally. So, well into, got it.
    General Harris. Okay.
    Ms. McSally. 2032 is in the testimony, but okay.
    General Harris. And we continue to have a discussion and a 
study to look at we are not walking away from the CAS [close 
air support] mission so we will continue to keep it minimum of 
55. We are trying to grow to 70 fighter squadrons and we are 
looking at our ramp to get there, and as we bring in light 
attack that can actually help relieve some of the requirements 
on the fourth-gen [generation] platforms that we are seeing 
right now.
    The A-10 only does about 20 percent of our CAS missions. It 
continues to be a great airplane and we will fly it while it 
fits into our program. But it doesn't support the National 
Defense Strategy of our high-end fight for Russia and China, 
and we continue to make those choices and those discussions for 
our future modernization.
    Ms. McSally. Right. And I very much support obviously the 
National Defense Strategy, but as long as we have Americans on 
the ground in harm's way, in certain circumstances we need the 
best capability overhead to get them home alive to their 
families and we know that this is a unique one that does that. 
So, thanks. I am out of time.
    Mr. Turner. We are going to have a number of provisions 
that--our informational provisions concerning the A-10 and one 
of the ones is going to go directly obviously to what Ms. 
McSally said, and that is since the production line was shut 
down while Congress was deciding whether or not the A-10 was 
going to be preserved, someone made a decision that cost the 
American taxpayer an enormous amount of resources, and we are 
going to be requiring an assessment of what that was. So, as we 
deal with these issues in the future hopefully at DOD someone 
will understand that until Congress takes action they ought not 
take action that affects the American taxpayer until the debate 
has been completed.
    I would like that assessment because I would like that 
figure to be known so that people know that that contrary 
action really does affect the taxpayer.
    With that we are going to Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    I think my question is for the Navy and Marines. I recently 
had the opportunity to visit the Naval Air Station Oceana, a 
great facility, and I am really excited about what the men and 
women there are doing. I met with the commander of the Strike 
Fighter Wing Atlantic and had an opportunity to tour the hangar 
and the other spaces that are used by the Strike Fighter 
Squadron 106.
    We talked about the Hornet, the Super Hornet, and I see 
that in the budget request for the fiscal 2019 we are looking 
for--the request is for additional F-18s as we wait for more F-
35s to come online.
    One of the issues that came up during my conversation and 
my observations at Oceana is that the supply shortages and if 
we are looking to extend and increase the use and demand on the 
F-18, then the question is where are we, what is your 
assessment about the supply chain.
    For those F-18s that are non-mission capable, are we 
attributing more to supply versus maintenance. Understand there 
is, you know, continues to be cannibalization that is 
happening. When I was an Army Aviation pilot, I don't know what 
the official policy was, but we never cannibalized, but I get 
that you have got to do that. It is not good for keeping 
aircraft up, it is not good for morale, for maintenance 
personnel, but if you could just talk to supply and 
cannibalization, particularly as it pertains to the F-18. Thank 
you.
    Admiral Grosklags. Sure, I will start. And then perhaps 
Admiral Conn will jump in with something that I may have 
missed.
    Not mission capable for supply is our number one driver for 
readiness on the F-18, particularly the E and F. You are well 
aware that we have underfunded those accounts over the last 7 
or 8 years. The average over the last 8 years were funded to 
about 72 percent of the requirement across the 8 years, so you 
can see how over time that would build up a very significant 
deficit in our spare support for that platform.
    Starting with the RAA [request for additional 
appropriations] in FY 2017 and continuing into fiscal year 2018 
and now into our PB19 budget request, funding for all of our 
aircraft, not just E and F spares has been increased 
dramatically into the 90, 95, almost 100 percent range across 
each of those fiscal years. That will take a little bit of time 
to have some effect as we have to go to industry, put those on 
contract, and get them delivered. But that is our primary 
effort at going after the spares shortage.
    As you said, there is far too much cannibalization going 
on, but you can't really blame the squadrons at this point 
because that's what they are using to get their other jets up, 
so it is incumbent upon the rest of us to give them the 
resources they need in order to get those aircraft back on the 
flight line and the additional supply money will be a big part 
of that.
    Admiral Conn. The only thing I would add is it is not just 
about the APN [Aircraft Procurement, Navy] 6, the new parts, it 
is making sure we can repair the parts we already bought. And 
with the investments we have in our APN 7 accounts to make sure 
our FRCs [Fleet Readiness Centers] have the right tools, the 
right benches to be able to turn around those parts is just as 
critical. That those FRCs have that equipment and the tools to 
turn around the parts we already bought, because quite frankly 
those parts are cheaper than the new ones and I think it is 
about 30 percent of the parts that we need in the fleet.
    The cannibalization rate, you are exactly right, not only 
is it a bad way to do business, it takes twice the time, 
because you got to take the part out and you got to put the 
part back in and the sailors are doing twice the work for one 
job and there is a risk when you cannibalize that you break the 
part, as I think that you are well aware, sir.
    So, this is an all-in strategy. You know, the investments 
we made in parts in 2017 will reach in full in 2019. There are 
investments we made in 2018 will realize that full effect in 
2020, and then 2019 will be in full effect in 2021. There are 
other things we have to do before those parts show up and 
supply chain management is one of those, making sure that we 
got the right parts to the right aircraft to get them in the 
air, and part of that is tied to the Vision 2020 that Admiral 
Grosklags mentioned in his opening comment about supply chain 
management, predictive maintenance, and use of data analytics 
to make those good choices throughout the process.
    Mr. Brown. Thanks. And just for the 30 seconds I have I 
will get parochial. At Pax River Naval Air Station, do a lot of 
research, development, testing, et cetera.
    We have got an aircraft prototype facility. They are 
waiting for funding, Phase 3 funding. It is on the DOD's 
unfunded priority list, but not the Navy's unfunded priority 
list. So, I would just like you to take a look at that and we 
will certainly follow up with you on that.
    Thank you, Mr. Chairman, I yield back.
    Mr. Turner. Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman.
    Admiral Conn, you made mention of the tragic event where we 
lost some brave aviators down in Key West. I had occasion to 
meet with the outstanding command staff that we have got down 
there and they took occasion while I was there to stress the 
importance of maintaining the Military Mission Line, so that 
the Navy could continue their operations in the eastern Gulf of 
Mexico free of the congestion that the erosion of that line or 
the movement of that line could create.
    The Air Force has stated under the signature of General 
Goldfein that unequivocally the Air Force opposes any change to 
the Military Mission Line. Does the Navy hold a similar view?
    Admiral Conn. I apologize, for the mission line for----
    Mr. Gaetz. The Military Mission Line that preserves the 
eastern Gulf of Mexico for training, test and evaluation 
missions that benefit both the Air Force and the Navy. If it is 
something that you would like to get back to me on that's fine.
    Admiral Conn. Let me get back to you on that, sir, and make 
sure that I fully understand the problem----
    Mr. Gaetz. Yes, my question is do you have a different view 
of the Air Force since the Air Force has been unequivocal on 
this. Have I mischaracterized the Air Force's position, General 
Harris?
    General Harris. No, we--unequivocal, we need to protect 
those range assets.
    Admiral Conn. I would agree with that.
    Mr. Gaetz. Wonderful. Thank you.
    General Bunch, when we first met I was a country lawyer 
running around Okaloosa County, Florida, and you were doing 
great work at Eglin Air Force Base guiding our community 
through an EIS [environmental impact statement] process where 
we were anticipating a certain number of Air Force variant F-
35s along with variants for the Navy and the Marines. The Navy 
and Marines have made other plans. They are going elsewhere.
    In our current EIS caps, the universe of Air Force variants 
that we can have of the F-35 and we have these unfilled slots 
for the other branches of our services.
    Does the Air Force believe that refreshing that EIS to 
reflect the need for more Air Force aircraft at Eglin could 
help us save money, could be advantageous, or do we live under 
the current EIS forever?
    General Harris. Sir, if you don't mind I will speak to that 
from a plan perspective.
    Mr. Gaetz. Certainly.
    General Harris. We are looking at that. As the F-35 
community grows, our ability to get trained aircrew pilots in 
this case through, we are looking at both the airplanes that 
are possessed there which are some of the oldest in the fleet, 
looking at how we can modernize and refresh those along with 
looking at the EIS because it is limited to 59 total F-35s and 
we recognize that, that there is some room to work. So, we will 
take that through our strategic basing process and make sure 
that we get a good look at it.
    Mr. Gaetz. So, it is a goal then of the Air Force to have 
more of the F-35 A variant allowed under that 59 cap?
    General Harris. I can't say it is a goal. It is something 
that we are studying.
    Mr. Gaetz. Great, and is there a timeline for that decision 
calculus?
    General Harris. Not yet, no, sir. We are looking at it. We 
still have room to grow at Luke, but as Luke fills out looking 
at Eglin to make sure we have got the decisions made in time if 
that is where we are going. That would have to be a couple of 
years before Luke completes its build.
    Mr. Gaetz. I would simply offer to you that when General 
Bunch and I went through that process previously there were 
factors and circumstances that I think no longer would present 
a challenge to allow us to be able to fully utilize that Air 
Force asset to fulfill the mission.
    Admiral Grosklags, I wanted to ask you about plans on the 
TH-57. The TH-57 fleet right now is old. The chairman I believe 
talked about training aircraft and what our plans were, is 
there a replacement strategy for the TH-57?
    Admiral Grosklags. There is. I think Admiral Conn can 
probably address this better than I can.
    Mr. Gaetz. Wonderful.
    Admiral Conn. Our strategy for replacing the TH-57 is to go 
commercial off-the-shelf. We are going to buy a commercial 
aircraft and integrate it into the training down in Florida. 
That timeline will probably start in 2020 and we will start 
buying aircraft in 2020 and be divested by the TH-57 by 
approximately 2023. So we don't have to do any testing on the 
aircraft. So, it is a buy and start flying.
    Mr. Gaetz. I greatly appreciate that sense of urgency. I 
know at Whiting we have got over 200 circumstances a year where 
a helicopter that takes off at the base has to come back on a 
truck for that purpose. Have we contemplated a strategy that 
would be turnkey training or have we dismissed that as an 
alternative?
    Admiral Conn. We have not. All options are on the table.
    Mr. Gaetz. And what are you evaluating or what can you 
share with me about where the Navy's thinking is on the 
benefits and drawbacks of turnkey training versus a procured 
and purchased commercial system?
    Admiral Conn. I think the fact that we are getting ready to 
compete this, both the aircraft and then potential turnkey 
solutions, I am hesitant to address the strengths and 
weaknesses at this point.
    Mr. Gaetz. That is fine. I just want to make sure that as 
the RFP [request for proposal] goes out that it is sufficiently 
permissive where if someone has a turn--and I am not a partisan 
for turnkey versus a procured commercial system. I simply want 
to make sure that the Navy has both of those options to compare 
and it sounds as though that is your plan.
    Admiral Conn. That is correct.
    Mr. Gaetz. Thank you, Mr. Chairman. I yield back.
    Mr. Turner. Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    I thank you all for being here today. My question is for 
Admiral Grosklags.
    The Navy's physiological events team obviously led by 
Admiral Joyner has been keeping us well up-to-date as a matter 
of fact on the progress with PE issues that her organization 
continues to look at. And, you know, they take a holistic 
approach to examining those problems and obviously the 
solutions.
    My question to you is, can you speak for just a minute on 
the difficulties that the Navy could encounter if Congress 
attempts to legislate some specific mechanical solution rather 
than just letting the Navy continue to maintain its approach 
and flexibility as you learn and test new things?
    Admiral Grosklags. Yes, sir. As you know, we are taking a 
very holistic approach. And that was I will say reemphasized if 
you will to us by the NASA study last year, where they looked 
at what we were doing and said you are actually focusing too 
much on just mechanical solutions and you really need to get 
the aviator, the physiology, the operational environment into 
your considerations more than just fixing the eaches on the 
aircraft.
    We fully recognize we need to continue to fix each one of 
those mechanical things if you will that we have identified to 
date, and that Congresswoman Tsongas mentioned many of those in 
her opening remarks and her follow-on question. But there are 
other things that have been put on the table for several years 
now, mechanical fixes that in the end as we have examined them 
have panned out to not be as valuable as originally thought. 
So, the real focus that we have right now is on getting to the 
root cause of things and changing only those things that we 
have demonstrated by fact that impact the rate of physiological 
events.
    A very simple recent example, actually I can give you two 
of them very quickly. The software fix that Congresswoman 
Tsongas referenced, we introduced that to the fleet about 2 
months ago. We had a PE on an aircraft about 3 weeks ago I 
believe. That aircraft did not yet have that software fix 
installed. If it would have, it would have prevented that PE.
    There is a ram air dump switch that was inadvertently 
activated during one of our physiological events. When we 
looked at that mishap we said, well, or that physiological 
event, we said we are probably not going to change that dump 
switch location because of one PE. But when we looked at it 
further, when we pulled the string through that root cause 
corrective action process, it turned out that the pilots were 
hitting that dump switch many more times that weren't causing 
physiological events, but had the potential to.
    So, now we are going to go in and make a fix to the 
location of that switch to address that specific problem. Those 
are the kind of eaches that we have to get at while we are 
doing this along with, again, the aircrew physiology stuff that 
NASA recommended.
    Mr. Graves. I appreciate your answer. My worry is always 
when Congress gets involved and tries to legislate specific 
fixes all it does is end up creating problems, costing money, 
and it is very counterproductive. So, thank you for your 
answer.
    Thanks, Mr. Chairman.
    Mr. Turner. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    And I want to thank our panel of witnesses. Thank you all 
for your testimony and for your service to the country.
    It is important with all budget requests that we really 
strike the appropriate balance between building and procuring 
new next-generation systems and modernizing systems that still 
have plenty of life in them. My question is, how are you 
thinking about including game-changing capabilities such as 
directed energy weapon systems which are low-cost, high-range, 
deep magazine capable technologies, both from the outset in the 
requirements building phase, as well as through the 
modernization processes?
    General Harris. Congressman, if you don't mind, I will 
start with that down here from an airman's perspective. Because 
of the budget increases and what we are looking at are some of 
the gaps in some of the areas that we are not sure of if we can 
get further ahead than we currently are, we are making some 
healthy bets in some of those areas.
    The ones you mentioned in addition to advanced computing, 
big data, artificial intelligence, robotonomy and autonomy--I 
am sorry, robotics and autonomy. We are looking at each one of 
those and coming together as a group of services through CAPE 
[Office of Cost Assessment and Program Evaluation] to see how 
we can best pool our capabilities, so that when one of us makes 
an advance, it applies and helps all of us as we move forward, 
because each one of the services has a budget line to support 
those efforts and we are figuring out what is our best way, 
because just going at things the same way of modernizing old 
stuff, it is still going to be old stuff, just going to last 
longer, but it may not be as effective as you would like it to 
be.
    So, we are working in that direction to make sure that we 
do have game-changing technology headed our way.
    Mr. Langevin. Thank you, General.
    Anyone else want to chime in?
    Admiral Grosklags. I will touch on two things. I will stick 
with directed energy first. We are not pursuing anything that 
we can talk about here right now on aviation platforms, but we 
do plan to have a directed energy capability on one of our 
surface ships that we will have back out there in fiscal year 
or in calendar year 2019. So, the Navy is pursuing directed 
energy. But right now, it is more focused on our sea-based than 
our aviation platforms.
    The other place that I think, as General Harris said, we 
are collectively making significant investment right now is in 
hypersonics, not only in the defensive side, but also just as 
importantly, perhaps more importantly, on the offensive side of 
the house. And as he said, this is really about the services 
coordinating as opposed to going down an individual service 
path. And I think our service acquisition executives and our 
service secretaries have kept us very focused on that joint 
effort, joint pursuit of these new technologies.
    Mr. Langevin. Thank you.
    General Rudder. I will just offer for the directed energy 
thing for this discussion, one of the things you are going to 
see very quickly is the counter-UAS [unmanned aerial system] 
piece. So, we are working through that right now. That seems to 
be proving very valuable as far as that going against those 
type of systems.
    I will also mention something a little more simple and that 
is taking all the information that is being derived from the F-
35 series of aircraft and what do you do with that information. 
There are several different efforts out there right now to take 
a broadly how to take all the waveforms and condense them into 
the ability to get it down to the corporal on the ground.
    And we are doing some experimentation right now out at our 
weapons tactics squadron with tablets and using the ability to 
use tablets out on the battlefield. So, the goal would be if 
you look into the future is that corporal, that squad leader 
that is going into the objective area, on his tablet, he has 
got the same information that the F-35 is seeing or any 
unmanned system in the area is providing to him.
    Mr. Langevin. Very good. Thank you, General.
    So, I am interested, greatly interested in the pilot 
shortage as well, particularly combat pilots which is most 
acute I know right now in the Air Force. Though, if time 
permits, I would like responses from each of the services. My 
understanding right now reaffirmed by a GAO [Government 
Accountability Office] report released yesterday is that pilots 
are leaving for the civilian sector not because of pay or 
promotions or op tempo in the service, but primarily due to 
career dissatisfaction from the lack of flying when not 
deployed.
    So, I am sure you have your own analysis as to why good 
combat pilots are leaving, but what do we need to do to keep 
them?
    Admiral Conn. I will go first. One, we are in a war for 
talent for our folks that fly our aircraft. They are going to 
the airlines. They are going to med [medical] school. They are 
going to law school. They are going to get their MBA [Master of 
Business Administration] and they are starting their own 
businesses.
    My focus is on reducing distractions and one of those 
distractions is not flying enough particularly in our 
maintenance and basic phase where we are struggling with our 
readiness. We are paying, we are putting the folks forward with 
the proper readiness training and certification, but it is at 
the expense of folks on the bench. And that is what we have to 
fix through our readiness accounts. The GAO report, the only 
thing that I will say from the Navy perspective in the 
shortfalls they addressed, it is not from a retention 
shortfall. It is from our T-45 challenge of shutting down T-45 
operations, taking a pause and that is causing a shortfall in 
the fleet.
    Today, it is about 70 pilots short for 58 squadrons. Yes, 
that will increase to about 160 short in FY 2019 for those 58 
squadrons, but we are going to work our way through that T-45 
pause through manning actions, increasing tour lengths, and as 
well as taking risk in manning levels for those squadrons in 
the maintenance and basic phase.
    General Harris. And, Congressman, if you don't mind, I will 
add to that. I would second what the admiral has said about why 
the pilots are leaving. Ours are very similar from an airman's 
perspective and this is a very talented pool of people who if 
we give them the right circumstances will stay longer and do 
what we need in our Nation's defense. So, we are working that.
    To help, the Air Force has stood up an aircrew crisis task 
force that is looking at each one of these topics. It is partly 
on retention, partly focused on bringing in new pilots in a 
bigger quantity because this is a national crisis. You are 
seeing it first in your services, but you are going to see it 
very soon in your airlines where there are just not enough 
pilots to go around as the airlines are hiring 5,000 pilots a 
year and us at the table are only producing 2,000 a year. 
There's going to be an issue.
    So, you will see it first in your regional then moving up 
to your bigger aircraft, just the availability of pilots writ 
large. So, we will solve a portion of that and try and keep 
those pilots under a highly demanded skill set in our services 
longer across all three of us.
    Mr. Langevin. Is there a plan to finally distribute the 
findings of the task force? What is going to be the result of 
that?
    General Harris. Yes, sir. But, it is not just an Air Force 
piece. So, we are doing this with the services that you see at 
the table. But we are also working with our commercial industry 
to figure out how can we solve this together as a national 
problem. So, as we get to completion and we look to funding 
what we can to solve some of these issues, if it is a funding 
issue or freeing up white space, or getting more aircrew 
available so that they can focus their time on the flying 
rather than doing additional duties that don't necessarily 
improve their combat capability, we will certainly share that 
information.
    Mr. Langevin. Thank you, General.
    Thank you, all. I yield back.
    Mr. Turner. Turn to Ms. Tsongas, for closing comments?
    Ms. Tsongas. I just want to thank you all for your 
testimony and for your service.
    And, Admiral Grosklags, I wanted to specially commend the 
Navy for finally taking a look at the human physiology, the 
human being who is the aircraft crew as you are addressing the 
issue of physiological events. I am grateful the NASA report 
focused on that and that you have taken it seriously. So, thank 
you all for your service and for being here today.
    Mr. Turner. And with that, we will be adjourned.
    [Whereupon, at 3:19 p.m., the subcommittee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                             April 12, 2018
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 12, 2018

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 12, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. Please describe the increase in capability that the K 
model CH-53 will provide the Marine Corps and is the CH-53K program 
still on schedule?
    General Rudder. The CH-53K provides nearly three times the current 
CH-53E lift capability under the same ambient conditions, and is the 
only fully marinized, heavy-lift rotorcraft capable of supporting 
current and future warfighting requirements. The CH-53K will be a game 
changer for the MAGTF by providing unprecedented heavy lift capability 
and capacity, along with increased range, interoperability, and 
survivability at approximately the same projected O&S cost as the 
legacy CH-53E. Regarding the program schedule, most major test 
discoveries are behind us and the aircraft is performing well. However, 
achieving all credited test points has proven more time consuming than 
expected. Due to a number of factors NAVAIR/Marine Corps has informed 
the defense committees that they have underfunded the R&D account for 
FY19 and will need to increase the FY19 R&D funding to accommodate the 
additional push in testing for both FY19 and FY20. There will be an 
increase in R&D funding compared to previous PB projections. While this 
funding increase is significant, it covers unanticipated shortfalls.
    Mr. Turner. Regarding the Marine Corps' F-35 procurement plan, you 
already have F-35B IOC squadrons. How do you plan to employ the F-35C? 
Could you use more of them?
    General Rudder. The Marine Corps' F-35Cs will be integrated into 
United States Navy Carrier Strike Group (CSG) deployments with the 
Carrier Air Wing as 10-plane squadrons; this is in support of the USMC 
and USN TACAIR Integration (TAI) policy. When the USMC F-35C squadrons 
are not assigned to a USN Master Aviation Plan (MAP) carrier air wing 
deployment, they are incorporated into the USMC deployment rotations to 
meet global force requirements. The first USMC F-35C squadron stands up 
in fiscal year 2020. Timely procurement of the Marine Corps' F-35Cs is 
a priority in order to meet Department of the Navy TAI deployments. Due 
to the planned integrated deployments, unfunded and congressional 
additions of F-35Cs for the USMC have a greater immediate impact than 
F-35B additions. This is due to increased F-35C training requirements, 
fleet replacement squadron production requirements, and the necessity 
to build and source squadrons with enough F-35Cs to train with, deploy 
with, and have ready while aircraft are being modified as part of the 
F-35 program continuous capability development and delivery (C2D2) 
modification and modernization plan. It is in this light that we are 
currently assessing the requirement for additional F-35Cs--beyond what 
is currently programmed. The F-35 modernization plan is mapped in 
detail over the next decade, both in terms of the technologies that we 
pursue and in terms of managing our fleet so that we can modify earlier 
lot aircraft and seamlessly incorporate new developments into the 
production line. This aircraft will meet operational requirements for 
decades with the long term view to continuously improve capabilities 
designed to counter and win against pacing threats.
    Mr. Turner. The Chief of Naval Operations has described all of the 
attributes which increase naval power and mentioned the need to ``have 
your magazines full'' when he describes the ``ready fleet.'' How do the 
weapons procurement investments in the fiscal year 2019 budget request 
make the fleet a more ``ready fleet''?
    Admiral Conn. Building a more lethal force is one of the lines of 
effort our National Defense Strategy (NDS) is centered on; and the 
``ready fleet'' attribute you describe from the CNO's Heritage 
Foundation speech is one of six specific dimensions for increasing 
Naval Power to achieve the ``Navy the Nation Needs''--which is the 
Navy's maritime expression of the NDS. With PB19 and the support of 
this Congress, all major weapons acquisition programs remain consistent 
or increase from FY18 levels and support the Navy's goal of increased 
capability and capacity, supporting the more lethal force line of 
effort. To ensure our superiority in all domains, PB19 improves weapons 
capability by funding additional RDT&E efforts in AIM-9X, SDB II, AARGM 
and LRASM ($85M increase in RDT&E), while simultaneously ramping up 
these weapons procurement over FY18 levels ($79M increase in WPN).
    Mr. Turner. The Navy has talked about utilization rates of the F/A-
18 fleet being much higher than planned and how this negatively impacts 
aviation readiness. With no relief in sight on asset demand, when do 
you expect Super Hornets to begin reaching the end of their service 
life? Also, can you describe what efforts are underway to prevent the 
same challenges, which are plaguing the legacy fleet? Has the Navy 
taken steps to ensure adequate depot capacity, parts and engineering 
analysis to better predict what work is required to extend Super Hornet 
service life? Finally, what funding is dedicated to these efforts in 
the fiscal year 2019 budget request?
    Admiral Conn. The first F/A-18E/F aircraft begin reaching the end 
of their service life this year with four airframes being inducted into 
F/A-18E/F Super Hornet Service Life Modification (SLM) in FY18. The 
Navy is aggressively pursuing Strike Fighter Inventory management 
strategies to include: a combination of new strike fighter procurement; 
funding depot efficiency enabling accounts; increasing airframe service 
life and capabilities through concurrent repairs and modifications; and 
procuring long-lead material and spares. The lessons learned from the 
legacy F/A-18A-D Hornet Service Life Extension Program (SLEP) inform 
evolving F/A-18E/F Super Hornet and EA-18G Growler SLM. Additionally, 
to validate fatigue analysis and inform corrosion discovery, Boeing 
engineers are completing the full destructive teardown of two High 
Flight Hour Super Hornets in preparation for SLM. Initial SLM 
induction, and subsequent modifications and repairs, will be conducted 
by The Boeing Company under contract to Naval Air Systems Command, PMA-
265. In addition to service life extension, SLM will also be used to 
validate engineering and fatigue analysis, evaluate corrosion 
discovery, and inform Engineering Change Proposal (ECP) development. 
The ultimate goal of several years of SLM events (FY 2018-FY 2022) is 
the development of standard ``kitted'' modification packages. The 
Department's PB-19 budget submission makes significant progress in 
reversing the downward trend in strike fighter capacity and readiness 
while also investing in a future Navy strike fighter force mix. The PB-
19 Future Years Defense Program submission provides $9.2 billion for 
110 F/A-18E/F Block III and $11.9 billion for 97 F-35C aircraft--an 
increase of 29 strike fighters over the PB-18 plan. Additionally, the 
Department is planning to procure 76 MQ-25 air vehicles to extend the 
range and reach of the Carrier Air Wing (CVW) and supplant the F/A-18E/
F Super Hornet as the primary carrier-based inflight refueling 
aircraft, thereby decreasing F/A-18E/F utilization rates.
    Mr. Turner. What funding is the Air Force requesting in the FY2019 
President's budget to support plans to extend the F-15C/D's service 
life?
    General Bunch. The FY19 President's Budget supports extension of 
the F-15C/D's service life by requesting funding for new longerons and 
new wings. The requested budget provides $132.6M in APAF to procure 93 
sets of longerons and to complete 73 longeron installs through the 
FYDP. In addition, the requested budget funds $5.7M in RDT&E to 
complete wing development and $103.9M in APAF to procure and install 
seven sets of wings.
    Mr. Turner. What is the new timeline for the next steps in the 
source selection process for the T-X? In addition, what is the next 
funding piece for the T-X?
    General Bunch. The T-X contract award is projected by the end of 
summer 2018. The FY19 President's Budget requests $265.5 million for 
the T-X program.
    Mr. Turner. What is your current plan for A-10 wing upgrades, and 
is this effort fully funded in fiscal year 2019?
    General Bunch. The A-10 SPO released a request for proposal on May 
25, 2018 to procure up to 109 wings. Proposals are expected by the end 
of August 2018. The Air Force currently has $79.2M budgeted for wing 
procurement in FY19.
    Mr. Turner. How is the progress in the research and development of 
advanced munitions to take full advantage of the Air Force's 5th 
generation fleet?
    General Harris. The USAF is engaged in and committed to developing 
advanced munitions to exploit the full capabilities of 5th gen 
platforms and their ability to perform in the A2/AD environment. These 
cooperative systems are essential to accomplishing our part of the 
National Defense Strategy and are a top priority as we evolve our force 
and increase lethality. For example, R&D is actively occurring in 
sensors, propulsion systems and munitions designs to make our next 
weapons as responsive and survivable as the launch platform. Internal 
carriage is also considered a top priority and integrated into the 
earliest USAF decisions to ensure airframe compatibility. This 
development of complimentary traits will allow our 5th gen fleet to 
engage future targets with surety of success.
    Mr. Turner. It is our understanding that training opportunities 
could be limited due to munition inventory shortfalls? Is this true, 
and if so, what impacts are low inventories of critical munitions 
having on your overall mission readiness?
    General Harris. Munitions expenditures in support of enduring 
combat operations have strained USAF inventories and has limited some 
training opportunities for our warfighters. Training opportunities are 
available and planned for with live air-to-ground and air-to-air 
munitions, but often not with the most preferred munitions due to their 
necessity in the current fight. Efforts over the last several years are 
now yielding increased munitions deliveries and our stockpiles are 
rapidly improving. These increases will allow for more and better 
training opportunities where warfighters can have more opportunities to 
employ live weapons prior to being asked to do so in combat.
    30MM Training Ammo: The anticipated retirement of the A-10 led to 
stopping the procurement of 30MM ammo. With the retention of the A-10 
until 2030(?), contracts are being restarted, but deliveries of the 
additional rounds will take time.
    HELLFIRE: Initial USAF inventories were not sufficient to support 
the rapid increase in combat ops tempo starting in 2014. The USAF was 
forced to restrict training opportunities for the preferred HELLFIRE 
versions in favor of supporting the warfighter. Starting in 2015, a 
major effort by both the Army and USAF to dramatically increase 
production along with CENTCOM AOR to husband these critical assets has 
allowed the USAF inventory to begin to recover. We are looking to start 
a controlled release of HELLFIRE ``R'' variants starting with the FY19 
training cycle, and will continue to release more assets for training 
based on inventory condition thru the FY19 training cycle. We 
anticipate few--if any--training impacts starting with the FY20 
training cycle.
    Small Diameter Bomb (SDB): The rapid increase in ops tempo in 
CENTCOM, growing concerns to limit collateral damage as well as 
inventory limits imposed on other low collateral munitions such as 
HELLFIRE, led to an increased reliance on SDB. We expect to be better 
able to support SDB training in the FY20 training cycle due to 
increased USAF purchases mirrored with greatly expanded industry 
output. Additionally, because of the stand-off range of the weapon, 
training opportunities are limited due to safety factors and training 
range capabilities.
    Advanced Precision Kill Weapons System (APKWS): This is a new 
system just entering USAF inventory. Since its introduction into the 
current fight, it has proven an exceptional weapon and the warfighter 
wants far more than we can procure up to this point. As a new item that 
went directly to the field, Air Combat Command has not developed a 
training requirement. We are addressing this at this time and will have 
training requirements in place to support FY20 training cycle. In the 
interim, as our inventory posture improves, we plan a measured effort 
to release APKWS to support training, especially for our aircrew 
weapons officers.
    Joint Direct Attack Munitions (JDAM): Increases in JDAM use has 
taken a toll on USAF inventories. To maintain sufficient stocks, the 
USAF restricted JDAM use in training, with priority going to support 
units preparing to rotate into the CENTCOM AOR and especially to those 
individual aircrews who have never employed JDAM before. We have 
already been increasing the numbers of JDAMs to support both the FY18 
and now the FY19 training cycles as gently increasing deliveries 
bolster inventories.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BROWN
    Mr. Brown. I would appreciate your perspective on the importance of 
the Aircraft Prototype Facility, and particularly, Phase 3 of the 
facility. I would also like to understand why this Aircraft Prototype 
Facility is on the DoD's Unfunded Priority List, but not on the Navy's 
own Unfunded Priority List--in fact it appears the ``APF Phase 3'' 
project could be slipping to the right?''
    Admiral Grosklags and Admiral Conn. The Aircraft Prototyping 
Facility, Phase 3 project remains an important requirement to the Navy 
for supporting naval aviation research and development. Within military 
construction budget constraints, this project will continue to be 
evaluated among Navy priorities for a future budget request to 
Congress.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BACON
    Mr. Bacon. For Phase 2 of the OA-X Light Attack Experiment, will 
each operational test pilot fly and evaluate both the A-29 and the AT-6 
to ensure they can directly compare the strengths and characteristics 
of both aircraft? If not, how will the USAF ensure a fair and objective 
comparison to ensure we select the best possible aircraft for this 
mission?
    General Bunch. and General Harris. Operational aircrew flew their 
designated aircraft while Developmental Test aircrew flew both aircraft 
to assess system performance against a fixed set of threshold 
requirements. Evaluation criteria to select the best possible aircraft 
for the mission will be developed as part of the source selection 
process.
    Mr. Bacon. How are AFSOC's Light Attack Support Special Operations 
(LASSO) mission requirement being folded into the USAF's OA-X 
experiment? If not, why not?
    General Bunch. and General Harris. AFSOC's LASSO effort is being 
worked in coordination with the overall Light Attack effort. As such, 
the Light Attack Experiment will inform the LASSO.
    Mr. Bacon. What is the Air Force's current acquisition strategy for 
the OA-X aircraft? What are your plans for spending the FY18 $100M 
provided by Congress for OA-X? Is additional funding needed and will a 
reprogramming be necessary to execute your acquisition strategy?
    General Bunch. The Air Force is currently pursuing rapid 
acquisition fielding authorities under Section 804 of the National 
Defense Authorization Act of 2016. The FY18 funding is being utilized 
for the Light Attack effort to include: the actual experiment, Program 
Office stand up and staffing, and risk reduction activities such as 
Live Fire testing (planning and execution, parts, equipment, material, 
and re-test activities). Additional funding is not needed at this time.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP
    Mr. Bishop. Recent reports indicate that unless F-35 sustainment 
costs are brought down by 38%, the AF may need to reduce their purchase 
by 500+ aircraft. In what ways can the committee help in the upcoming 
NDAA cycle to improve F-35 sustainment costs, particularly in regards 
to depot level maintenance?
    General Bunch. The USAF is working toward greater collaboration 
with the F-35 Joint Program Office and Lockheed Martin to further 
analyze and control sustainment costs. The USAF is also accelerating 
depot activation and working to implement other cost reduction 
initiatives in concert with the Joint Program Office. While we are 
concerned about current and rising sustainment costs, it is too early 
for us to make any decision today on reducing the total buy of 1,763.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BROOKS
    Mr. Brooks. In order to be good stewards of the F-22 assets that 
the Air Force has said we will continue to fly until the mid 2040s, 
what is the status of upgrades on the F-22 to counter advancing threats 
that specifically target the aircraft's capabilities? When can the F-22 
operationally expect to see data link capabilities to talk and connect 
with other aircraft? When can the F-22 operationally expect to carry 
the AIM-9X Block II?
    General Bunch. The TACLink 16 program will add a Link 16 transmit 
datalink upgrade, in addition to its existing Intra Flight Data Link 
capability. TACLink 16 fielding is scheduled to begin 3QFY20. The F-22 
Increment 3.2B program, which will provide AIM-9X Block II capability, 
is on track to begin fielding in the second half of FY19.
    Mr. Brooks. Why has the Air Force decided not to budget for a 
Helmet Mounted Display for F-22 pilots? Not only does a Helmet Mounted 
Display provide situational awareness for all aspects of flight, to 
include safety issues, visual lookout doctrine and instrument scan, it 
also couples with missile capabilities that yield first shot 
opportunities in a within visual range engagement.
    General Bunch. For FY19 the Air Force has requested $1.82M of RDT&E 
funding to support the F-22 Helmet Mounted Display and Cueing System 
(HMDCS) effort. As part of the FY19 request, the Air Force included 
$12.9M of Procurement funding in FY22 for HMDCS, when it is anticipated 
the system will begin procurement activities.

                                  [all]
</pre></body></html>
